               Department of Veterans Affairs
               Office of Inspector General



                   Office of Healthcare Inspections

Report No. 13-03670-13



              Healthcare Inspection 


           Audiology Staffing, 

         Consult Management, 

           and Access to Care 

     Sheridan VA Healthcare System 

           Sheridan, Wyoming 





November 5, 2013

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
         Audiology Staffing, Consult Management, and Access to Care, Sheridan VAHCS, Sheridan, WY



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to complaints about audiology services at the Sheridan VA
Healthcare System (system), Sheridan, WY. The complainant alleged that there is
insufficient staffing of the Audiology Service and that audiology consultations, including
those for non-VA purchased care, were inappropriately cancelled or discontinued. It
was also alleged that veterans’ access to audiology services was delayed.

We did substantiate that Audiology Service staffing was insufficient. However, this was
mitigated by several actions taken by the system to provide audiology services during a
period of staff shortage. We reviewed data demonstrating what the system monitors to
assess its staffing. We learned of Veterans Integrated Service Network collaborations
to address demand during temporary periods of staffing shortages as well as system
forecasting and planning to address demand over the long term. Additionally, we found
that the system was utilizing a process consistent with VHA guidelines to determine
Audiology Service staffing levels.

We did not substantiate that requests for audiology consultations, including non-VA
purchased care, were inappropriately cancelled or discontinued. We found that the
system had a comprehensive policy and process in place for consult management. We
reviewed a representative sample of Electronic Health Records of audiology consults in
all statuses – scheduled, completed, cancelled, and discontinued for the period October
1, 2011, to June 13, 2013. We found that in all records reviewed where the consultation
was cancelled or discontinued, a clear and appropriate justification was documented.

We did substantiate that veterans’ access to audiology services was delayed. We
reviewed appointment wait time data at the time of our visit and found that while all
veterans who had requested an appointment had been scheduled, 32 patients were
waiting more than 14 days from their desired date for an initial appointment. However,
the system was aware of the situation and had processes and procedures in place to
address the demand including the use of non-VA purchased care as a first choice, use
of locums tenens, if available, and then the Electronic Wait List.

We made no recommendations.

Comments
The Veterans Integrated Service Network and Facility Directors concurred with the
report. No further action is required.




                                                          JOHN D. DAIGH, JR., M.D.
                                                         Assistant Inspector General for
                                                           Healthcare Inspections


VA Office of Inspector General                                                                  i
            Audiology Staffing, Consult Management, and Access to Care, Sheridan VAHCS, Sheridan, WY



                                              Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to assess allegations regarding staffing for the provision of audiology
services and management of audiology consults at the Sheridan VA Healthcare System
(system). It was alleged that veterans’ access to audiology services is compromised
due to a lack of adequate staffing, failure to utilize non-VA purchased care (formerly
referred to as “fee-basis” care) when indicated, and unjustified cancelling of non-VA
consults. The purpose of the review was to determine whether the allegations had
merit.


                                          Background 


The system consists of a 205-bed main facility located in northeastern Wyoming that
provides psychiatric and medical care, including extended care, mental health
residential care, and operates a Domiciliary Residential Treatment Program for
Homeless Veterans. Its primary catchment area extends to veterans from Wyoming,
Montana, Colorado, Utah, and parts of Idaho. The system serves as the psychiatric
tertiary referral site for Veterans Integrated Service Network (VISN) 19. The system
also serves as the hub for five Community Based Outpatient Clinics (CBOCs) located in
Casper, Gillette, Powell, Riverton, and Rock Springs, Wyoming.

The catchment area is comprised of significant rural and even frontier areas. Issues
considered when classifying an area as frontier include population density, distance
from a population center or specific service, travel time to reach a population center or
service, functional association with other places, availability of paved roads, and
seasonal changes in access to services. The state of Wyoming ranks 50th in population
and 49th in density at just 5.8 persons per square mile. Neighboring states also have
many rural as well as frontier areas. The five state region is characterized by
mountainous terrain, substantial winter snowfall, two-lane roads, and residents seeking
a remote lifestyle. There are only 54 licensed audiologists in the entire state and the
number of those actively practicing who accept VA payment for services is significantly
limited.

“The overall objective of audiology services is to optimize individuals’ ability to function
through the provision of integrated, specialized [hearing] services.”1 Audiology services
are performed by a trained specialist called an audiologist. Audiologists provide
professional clinical services related to the prevention of hearing loss and the
assessment and treatment of patients with impairment of auditory and/or vestibular
function. Some services such as audiometry tests, performed to identify and diagnose
hearing problems, require special equipment. To achieve optimal results the test must
be performed in an environment where outside noise is limited, that is, a soundproof
1
    VHA Handbook 1170.02, VHA Audiology and Speech-Language Pathology Services, March 14, 2011.




VA Office of Inspector General                                                                    1
         Audiology Staffing, Consult Management, and Access to Care, Sheridan VAHCS, Sheridan, WY


room called an audiology booth. The audiology booth can be located in the
audiologist’s office or may be a separate space.

Audiology services provided on site at the system include hearing tests, hearing aid
fittings, hearing aid and other audiology follow-up services, and Compensation and
Pension examinations for hearing-related disability claims. Organizationally, Audiology
Service reports to the Associate Chief of Staff (ACOS), Primary Care. Audiology
services at the five CBOCs are limited to hearing aid fittings and adjustments and are
provided through telehealth technology. Telehealth services are provided at the CBOC
by a staff member, referred to as a “telehealth technician” who has been trained by the
system’s Audiology Service medical staff assistant (MSA). The CBOC telehealth
technician connects a hearing aid to a computer which provides data to the audiologist
in Sheridan who can then direct the technician to make adjustments as indicated.
Additionally, when available, non-VA audiology purchased care services may be
obtained in the community and processed through the system’s Business Office.

As of July 25, 2013, system Audiology Service staffing consists of 1.5 full-time
equivalent (FTE) audiologists and a 0.5 FTE MSA. Staffing prior to fall 2010 consisted
of a 1.0 FTE audiologist. In September 2010, an additional 0.5 FTE audiologist was
hired. In July 2010, construction began on a new audiology booth and the existing
booth was remodeled. These actions were taken to accommodate the increase in staff
and to improve patient flow. This work continued until March 2012, when both booths
became operational. Hearing aid fittings, checks, repairs, and follow-up care continued
at the system throughout the booth renovation/construction phase. Services not
performed at the system were evaluations requiring the use of an audiology booth;
these were referred to the community via non-VA purchased care. Also during 2010 to
2012, there were temporary circumstances that resulted in a staffing shortage. As a
result, adjustments were made to staffing schedules and a locum tenens audiologist
was brought in for part of this time to assist with patient care.

Allegations

In early 2013, the Office of Healthcare Inspections was apprised of the following
allegations pertaining to the system’s Audiology Service:

       1. Veterans’ audiology care is not timely.

       2. There is insufficient staffing of the Audiology Service.

       3. Audiology consultations, including those for non-VA purchased care, were
          inappropriately cancelled or discontinued.

       4. Access to audiology care is inadequate.




VA Office of Inspector General                                                                 2
           Audiology Staffing, Consult Management, and Access to Care, Sheridan VAHCS, Sheridan, WY



                            Scope and Methodology 


In order to address the allegations, we conducted a site visit in July 2013. We
interviewed system Audiology Service and Business Office staff, the Administrative
Officer (AO) and ACOS for Primary Care, the Chief of Staff (COS) and the AO to the
COS. We reviewed relevant Veterans Health Administration (VHA) and system policies
and procedures; audiology staffing data, workload data, wait time and non-VA care
utilization data; Audiology Service complaints; and internal monitoring and site review
reports.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.


                                 Inspection Results 


Inspection Results
Issue 1: Audiology Service Staffing

We substantiated the allegation that Audiology Service staffing was insufficient.
However, it was mitigated by several actions taken by the system to provide audiology
services during a period of staff shortage. Additional mitigating factors include the
system’s awareness and cultural sensitivity to the realities of providing audiology
services in an area inherently challenged by a lack of available, qualified providers,
remote topography, and geographic remoteness of its dispersed patient population.

VHA requires that to staff audiology services, “Facilities need to apply a systematic
methodology to establish staffing levels and skill mix to ensure that a qualified and
competent workforce is available to provide high-quality, timely, and efficient health
care.”2 Additionally, system leadership needs to consider the input of audiologists.3

We found that the system was utilizing a process consistent with VHA Handbook
1170.02, VHA Audiology and Speech-Language Pathology Services, March 14, 2011,
to determine Audiology Service staffing levels. The process included assessing
audiology access by monitoring wait times, workload (including provider productivity),
utilization of non-VA purchased care, audiology referrals, a daily review of consult
requests, and Electronic Wait List (EWL) monitoring. The system provided data about
Audiology Clinic utilization, clinic capacity, encounter activity, primary and specialty care


2
    VHA Handbook 1170.02.
3
    VHA Handbook 1170.02.




VA Office of Inspector General                                                                   3
            Audiology Staffing, Consult Management, and Access to Care, Sheridan VAHCS, Sheridan, WY


timely access, non-VA purchased care audiology utilization summaries, and audiology
consult requests.

Based on the assessment of capacity and demand, in January 2013, the ACOS and
AO/Primary Care submitted justification to the Resource Allocation Committee for
additional audiology staff; appropriate actions were taken, including the approval for a
1.0 FTE Audiology Technician.

In summary, we found that while the allegation has merit, the system was well aware of
the situation alleged, and was in the difficult position of having great demand from a
veteran population in the setting of a limited supply of qualified audiology professionals.

Issue 2: Consult Management
We did not substantiate that requests for audiology consultations, including non-VA
purchased care, were inappropriately cancelled or discontinued.

According to VHA consult policy,4 “a clear and solid consultation process is vital to
patient care.” Requests for audiology consultation are made using electronic consults in
the electronic health record (EHR), and can be scheduled, completed, cancelled, or
discontinued. A “scheduled” status indicates that the request for consultation has been
accepted and that an appointment has been scheduled. A request for consultation in
“scheduled” status will change to “completed” status when the consulting service has
seen and evaluated the patient with a documented progress note in the EHR linked to
the consultation request. In the case of non-VA purchased care requests, the consult
status is recorded as “completed” by the Business Office after the patient has received
the requested non-VA care services. A “cancelled” status indicates that the request for
consultation has been closed without the consulting service seeing the patient. A
“discontinued” status indicates that the provider who requested the audiology care for
his or her patient no longer requests consultation.

We found that the system had a comprehensive policy and process in place for consult
management. The system provided data about rates of scheduled (2%), completion
(82%), cancellation (8%), and discontinuation (8%) for all audiology consult requests
from October 1, 2011, to June 13, 2013. An EHR review of audiology consults in all
statuses – scheduled, completed, cancelled, and discontinued was completed. Our
review found that in all records reviewed where the consultation was cancelled or
discontinued, a clear and appropriate justification was documented.




4
    VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.




VA Office of Inspector General                                                                    4
            Audiology Staffing, Consult Management, and Access to Care, Sheridan VAHCS, Sheridan, WY


Issue 3: Access

We substantiated that veterans’ access to audiology services was delayed.

At the time of our visit, all veterans who had requested an appointment had been
scheduled; however, 32 patients were waiting more than 14 days from their desired
date for an initial appointment.

VHA has established specific processes and requirements for outpatient scheduling.
Facilities are tasked with “Ensuring standardized systems are in place to balance supply
and demand for outpatient services including continuous forecasting and contingency
planning.”5 Additionally, facilities must implement “…standardized processes for
enrollment, and the scheduling, processing, and management of appointments,
consults, and wait lists.”6

Audiology workload and demand at the system has consistently increased over the past
4 fiscal years as reflected in the table below.

                                   Audiology Workload and Demand

                                    FY 2009         FY 2010          FY 2011          FY 2012
                Uniques               640             796             1011             1293
                Encounters           1266             1544            1687             1894
                   Source: Encounter Activity Report, Sheridan VA Healthcare System


We found that the system’s internal monitoring of access to Audiology Service includes
routine daily review of audiology consults by the AO to the ACOS, Primary Care, and
monitoring every other day by the Business Office of the EWL, if applicable.
Contingency plans used by the Audiology Service to improve access include use of
non-VA purchased care as a first choice, use of locums tenens, if available, and then
the EWL.

The system was able to demonstrate process improvement of audiology services. For
example, in September 2011, the system, through a VISN audiology collaboration,
conducted a systems redesign review to identify possible areas for change and/or
improvement. Additionally, the system engages in intra-VISN collaboration to provide
audiology services to veterans based on transportation routes and travel patterns. This
approach, rather than the artificial borders of a system’s catchment area, serves to ease
the burden on the veteran and caregiver, facilitate timely provision of care, and increase
access.




5
    VHA Directive 2010-027, VHA Outpatient Scheduling Processes and Procedures, June 9, 2010.
6
    VHA Directive 2010-027.




VA Office of Inspector General                                                                    5
         Audiology Staffing, Consult Management, and Access to Care, Sheridan VAHCS, Sheridan, WY


We found that the system had processes and procedures in place to address the
demand for outpatient audiology services and was actively involved in monitoring,
forecasting, and contingency planning.

In summary, similar to the staffing issue discussed above (Issue 1) we found that while
the allegation has merit, the system was well aware of the situation alleged, and was in
the difficult position of having to balance great demand from a veteran population with a
limited supply of qualified audiology professionals. We do note, also, that audiologic
evaluation generally is of patients with chronic hearing loss that has been present for
months or years, and except in the case of sudden, acute hearing loss, is generally not
an emergency.


                                     Conclusions 


Access to specialty services such as audiology has historically been and continues to
be of particular challenge in rural and frontier areas including the five state catchment
area for this system.

We substantiated the allegation of insufficient Audiology Service staffing. However, we
found that the system was aware of this situation and taking actions to address this
shortage both on an interim and permanent basis. Additionally, we substantiated that
some patients had to wait more than 14 days for an initial audiology appointment.

We did not substantiate the allegations of mismanagement of audiology consults, or
decreased access to audiology services for veterans. While access in the last few
years was impacted by audiology booth construction and staffing challenges, the facility
addressed the demand for services by the appropriate use of non-VA purchased care
and the use of a locums tenens audiologist for the time period examined.

The facility’s continued surveillance, planning, utilization of non-VA purchased care, and
implementation of contingency plans as appropriate ensures compliance with VHA
guidelines. Such actions work to ensure wait times remain reasonable and access to
audiology services are open to all veterans including those whose age or health make
travel, sometimes in challenging weather over mountain passes, difficult.

On the basis of the system’s active and ongoing attempts to address staffing and wait
time for new appointments, we make no recommendations.




VA Office of Inspector General                                                                 6
         Audiology Staffing, Consult Management, and Access to Care, Sheridan VAHCS, Sheridan, WY
                                                                                     Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs	                                 Memorandum


   Date:       September 27, 2013

   From:       Director, Rocky Mountain Network (10N19)

   Subject: Healthcare Inspection – Audiology Staffing, Consult
            Management, and Access, Sheridan VA Healthcare System,
            Sheridan, WY

       To:     Associate Director, Seattle Office of Healthcare Inspections (54SE)

       1. I have reviewed the Healthcare	 Inspection report for Audiology
          Staffing, Consult Management, and Access to Care at the Sheridan VA
          Healthcare System and concur with the response provided by the
          Medical Center Director.

       2. If you have any questions or would like to discuss this response,
          please contact Ms. Susan Curtis, VISN 19 HSS at 303-639-6995.




               (original signed by:)


               Ralph T. Gigliotti




VA Office of Inspector General                                                                 7
         Audiology Staffing, Consult Management, and Access to Care, Sheridan VAHCS, Sheridan, WY
                                                                                     Appendix B
                         Facility Director Comments


               Department of
               Veterans Affairs	                                 Memorandum


   Date:       September 27, 2013

   From:       Director, Sheridan VA Healthcare System (666/00)

   Subject: Healthcare Inspection – Audiology Staffing, Consult
            Management, and Access, Sheridan VA Healthcare System,
            Sheridan, WY

       To:     Director, Rocky Mountain Network (10N19)

       1. Thank you for the opportunity 	to review this Healthcare
          Inspection report for Audiology Staffing, Consult Management,
          and Access to Care. We concur with the report’s conclusions.

       2. If you have any questions, please contact me at 307-675-3675.




               Debra L. Hirschman




VA Office of Inspector General                                                                 8
         Audiology Staffing, Consult Management, and Access to Care, Sheridan VAHCS, Sheridan, WY
                                                                                     Appendix C

                 OIG Contact and Staff Acknowledgments

Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720. 

Contributors             Mary Noel Rees, MPA, Team Leader 

                         Sami O’Neill, MA 

                         George Wesley, MD 

                         Marc Lainhart, BA





VA Office of Inspector General                                                                 9
         Audiology Staffing, Consult Management, and Access to Care, Sheridan VAHCS, Sheridan, WY
                                                                                     Appendix D




                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Rocky Mountain Network (10N19)
Director, Sheridan VA Healthcare System (666/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Barrasso, Michael B. Enzi
U.S. House of Representatives: Cynthia M. Lummis

This report is available on our web site at www.va.gov/oig.




VA Office of Inspector General                                                                10
